                                               TABLE OF CONTENTS


                                                                                                                          Page

ACRONYMS/ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

PRINCIPAL CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix

AUDIT OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . x

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xi

FINDINGS AND RECOMMENDATIONS

          1. Second Round Grantees Face the Same Vulnerabilities
               as Previously Reported . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          2. Inadequate Internal Controls Over Financial and Management
              Information Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3
                 a. Cost Allocation Plans for Multi-funded Grantees . . . . . . . . . . . . . . . .                            3
                 b. Cash Management and Other Fiscal Integrity Concerns . . . . . . . . . . .                                  4
                 c. Inadequate Time and Attendance Systems . . . . . . . . . . . . . . . . . . . . . . .                       6
                 d. Reporting Program Costs Without a Basis for Allocation . . . . . . . . .                                   7
                               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 9

          3. WtW Grantee Policies and Procedures Need Strengthening . . . . . . . . . . . .                                   10
               a. Lack of Formal Agreements with Subrecipients and
                    Service Providers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           10
               b. Lack of Written Oversight and Monitoring Procedures . . . . . . . . . .                                     11
                             Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    11




                                                               i
                                       TABLE OF CONTENTS


    4. Internal Controls Over Programmatic Compliance Need Strengthening . . .                                         12
           a. Grants Included Evaluation Studies Which May Not Be
                 An Allowable Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         12
           b. Other Grant Provisions Need to be Modified . . . . . . . . . . . . . . . . . . .                         13
                         Reduction in Funding . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                14
                         Implementation Schedule . . . . . . . . . . . . . . . . . . . . . . . . .                     14
                         Other Grant Modifications . . . . . . . . . . . . . . . . . . . . . . . .                     15
           c. Start-up Activities to Provide Child Care and Transportation
                Services Are Not Fully Developed . . . . . . . . . . . . . . . . . . . . . . . . . .                   16
                         Child Care Centers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              16
                         Transportation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          17
                                 Recommendations . . . . . . . . . . . . . . . . . . . . . . . . .                     18

APPENDICES

    1. Second Round Grantees with Parallel Findings From the
         First Round . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

    2. Matrix of New or Slightly Different Findings for Second
         Round Grantees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

    3. Overview of Principal Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

    4. Second Round Postaward Survey Fieldwork Information . . . . . . . . . . . . . . 28

    5. Status of Second Round WtW Competitive Grantees . . . . . . . . . . . . . . . . . 29

    6. Suggested Areas for Inclusion in Grantee Written
         Policies and Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

    7. Complete Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33




                                                         ii
         ACRONYMS/ABBREVIATIONS



AFDC              Aid to Families with Dependent Children

CAP               Cost Allocation Plan

CFR               Code of Federal Regulations

DHHS              Department of Health and Human Services

DOL               Department of Labor

ETA               Employment and Training Administration

FLSA              Fair Labor Standards Act

GOTR              Grant Officer Technical Representative

JTPA              Job Training Partnership Act

MIS               Management Information System

OCD               Office of Cost Determination

OMB               Office of Management and Budget

PIC               Private Industry Counsel

PRWORA            Personal Responsibility and Work Opportunity
                  Reconciliation Act

QFSR              WtW Competitive Grant Cumulative Quarterly
                  Financial Status Report

RFP               Request for Proposals

TANF              Temporary Assistance for Needy Families

WtW               Welfare-to-Work




                   iii
                                      EXECUTIVE SUMMARY

Background, Scope and Objectives

The Balanced Budget Act of 1997 authorized the Secretary of Labor to provide Welfare-to-
Work (WtW) grants to states and local communities to move hard-to-employ welfare
recipients into unsubsidized jobs and economic self-sufficiency. Competitive grants are
designed to encourage communities to develop innovative, results-oriented ways to help long-
term welfare recipients gain a secure foothold in the labor market. After awarding $199
million to 51 first round grant recipients in May 1998, the Employment and Training
Administration (ETA) in November 1998, awarded an additional $273 million to 75 second
round grantees in 44 states. The Office of Inspector General issued report number 05-99-
008-03-386 on March 24, 1999, on selected first round grantees.

Results

This report summarizes the results of our postaward survey of 12 second round
competitive grantees. Overall, we found that the grantees possessed the capability to
adequately deliver their WtW competitive grant programs, except for the findings noted in
this report. It is not surprising to us that the vulnerabilities described in Finding 1 for the 12
second round grantees mirror the financial management and policies and procedures findings
of the 35 grantees surveyed during the first round of competitive grants. In both cases, our
postaward visits to mainly non-traditional Department of Labor (DOL) grantees were made
shortly after their grant awards and before substantive actions were initiated by them to
establish an infrastructure for grant operations. For instance, in the first round surveys, we
reported that only 17 of the 35 grantees (49 percent) were operational at the time of our
review. Likewise, our survey of second round grantees found only
5 of the 12 grantees (42 percent) were operational.

In both rounds, our work alerted the grantees and ETA to the risks associated with impaired
operational systems. Finding 1 is depicted in Appendix 1, which compares the findings of the
second round survey with identical findings from the first round. The chart below shows the
critical issues in findings 2 through 4 (see Appendix 2 for further details), the number of
grantees, and the percentage of the 12 second round grantees related to each finding.


              Financial Management             Policies and Procedures       Programmatic Compliance
                    Finding 2                            Finding 3                   Finding 4
                                                                          Grants                Start-up
                                                 Lack of                 Include              Activities to
    Cost          Cash               Reportin     Formal       Lack of  Evaluation           Provide Child
 Allocation   Manageme Inadequat         g     Agreements      Written   Studies    Other      Care and
 Plans for    nt Issues &   e Time   Program       with       Oversight Which May   Grant    Transportatio
   Multi-     Other Fiscal    and     Costs    Subrecipients    and     Not Be An Provisions  n Services
  funded       Integrity   Attendanc without a and Service Monitoring Allowable Need to Be Are Not Fully
 Grantees      Concerns e Systems     Basis     Providers    Procedures  Activity  Modified   Developed
     8             7             5      7           4                 3      3         7            2

    67%           58%           42%    58%         33%               25%   25%        58%         17%



                                                     iv
With rare exception, we found that many of the second round competitive grantees
displayed the same or similar vulnerabilities identified during our examination of the first
round grantees. Thus, we believe ETA should reinforce its efforts to monitor grantee plans
and program implementation schedules to ensure the most efficient and effective use of
WtW funds, and to secure compliance with program requirements. Third round
competitive grantees should benefit from the lessons learned by grantees in rounds one
and two.

Summary Recommendations

We recommend that the Assistant Secretary for Employment and Training issue policy
guidance, instructions and provide technical assistance to fully address:

       C      approval of cost allocation plans to allocate common costs and expenditures
              to the 70/30 percent cost categories, as well as to reportable program
              activities;

       C      obligation for grantees to follow prescribed cash management requirements;


       C      compliance with time and attendance requirements in the Office of
              Management and Budget (OMB) circulars;

       C      redistribution of expenditures reported without a basis for the allocation;

       C      development of formal agreements with subrecipients and service providers;

       C      written oversight and monitoring procedures to ensure effective and
              efficient program operations;

       C      modification of grants to ensure up-to-date and accurate implementation
              schedules, budget summaries and other provisions, including the removal of
              unallowable evaluation studies;

       C      monitoring renovation projects for compliance with the prohibition against
              using Federal funds for construction; and

       C      the timely implementation of child care and transportation services to
              ensure that current WtW grant participants benefit from these costs.

Agency Response and Auditor’s Conclusions

The Assistant Secretary for Employment and Training responded to our draft report by
stating the Agency was in overall agreement with our audit findings. He also stated the
report reinforces anecdotal information received from Grant Officer Technical

                                             v
Representatives on issues observed with their grantees. In addition, the Assistant Secretary
provided updated information on technical assistance efforts that have been undertaken
partly in response to the issues identified through our postaward surveys. These efforts
include:

       S      issuing policy guidance on new fiscal and eligibility issues;
       S      plans for additional guidance to competitive grantees to reiterate policies
              that already exist, and follow up contacts to ensure that any needed
              corrective action is implemented;
       S      follow up efforts to ensure that any inappropriate evaluation components are
              removed from relevant grant documents; and
       S      plans for Financial Management Training in four locations.

The Assistant Secretary’s complete response is contained in Appendix 7, and excerpts
relative to each finding are shown following the applicable finding.

We concur with the Agency’s ongoing and planned corrective actions to remedy our report
findings and comply with our recommendations. However, we will continue to monitor
and evaluate these efforts before the findings can be resolved or closed.

.




                                             vi
                                     BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
(PRWORA)
was enacted August 22, 1996. The PRWORA, a comprehensive welfare reform bill
established the Temporary Assistance for Needy Families (TANF) program to supersede
the Aid to Families with Dependent Children (AFDC), the Job Opportunities and Basic
Skills Training and the Emergency Assistance programs. The TANF provisions
substantially changed the nation’s welfare system from one in which cash assistance was
provided on an entitlement basis to a system in which the primary focus is moving welfare
recipients to work and promoting family responsibility.

On August 5, 1997, the President signed the Balanced Budget Act of 1997. This
legislation amended certain provisions of the Social Security Act and authorized the
Secretary of Labor to provide WtW grants to states and local communities for transitional
employment assistance to move the hard to employ TANF welfare recipients into
unsubsidized jobs and economic self-sufficiency. The Balanced Budget Act authorized $3
billion for WtW grants in fiscal years
1998 and 1999. Approximately 75 percent, or $2.1 billion, was designated for distribution
by formula grants to the states with 85 percent being passed through by the states to
Service Delivery Areas established under the Job Training Partnership Act (JTPA)
program. Approximately 25 percent, or $712 million was slated for distribution through a
competitive grant process which is designed to encourage communities to develop new,
results-oriented ways to help long-term welfare recipients gain a secure foothold in the
labor market.

ETA published an Interim Final Rule in the Federal Register on November 18, 1997,
implementing the WtW grant provisions of Title IV, Part A of the Social Security Act, as
amended by the enactment of the Balanced Budget Act of 1997. The first round of $199
million (announced on May 27, 1998) was awarded to 51 competitive grant recipients.
The second round competitive grants were awarded on November 20, 1998, and totaled
$273 million for
75 projects in 44 states. Approximately $240 million remains available for additional
awards. The second round competitive grants performance periods generally began on
January 4, 1999. Total performance periods for the grants range between 18 and 30
months and funding must be expended within the grant period.

We developed a postaward survey guide to assess program implementation for 12 grants
awarded during the second round of WtW competition. Our previous review sampled 35
of the 51 first round grantees. We found during the first round survey that some grantees,
at the time of our visits, had inadequate financial management controls, inadequate policies
and procedures and several programmatic noncompliance issues.1 As in our first effort,


       1
        The results of our previous survey of first round grantees are contained in our audit
report number 05-99-008-03-386, issued March 24, 1999.

                                             vii
our overall objective for the current survey was to determine whether the grantees had
implemented and/or adequately planned for the financial management, program delivery
and internal control systems necessary to account for Federal funds and achieve the
purposes of their grants. Using similar procedures as in the first survey, we again issued
management letter reports to the individual grantees, with copies to ETA, so that corrective
actions could be promptly initiated. The ETA has been attentive and responsive to the
issues raised during the course of our audit fieldwork.




                                            viii
                                 PRINCIPAL CRITERIA

The principal criterion for the WtW program is 20 CFR Part 645, WtW Grants Interim
Final Rule, published November 18, 1997. Some of the major provisions of this program
include the work-first philosophy, how funds must be spent and eligibility under the 70/30
percent provisions. See Appendix 3 for more detailed information on WtW program
requirements.

Besides the program requirements identified in 20 CFR Part 645, there are a number of
additional administrative and program guidelines. These additional standards vary as to the
type of entity receiving the grant. The following table provides an overview of the OMB
circulars and DOL regulations that are applicable.



                                     OMB Circulars                           Regulations
                                                           Uniform           Department
    Nature of       Federal Audit       Federal Cost     Administrative          of
    Grantee         Requirements         Principles      Requirements          Labor

                                           A-87              A-102
   State/Local
                                         Amended            Amended        29 CFR Part 97
  Governments
                                          8/29/97           8/29/97
                       A-133
  Institutions of                          A-21              A-110
                       Revised
      Higher                              Revised           Amended        29 CFR Part 95
                       6/24/97
    Education                            10/27/98           8/29/97

                                          A-122              A-110
  Private Non-
                                          Revised           Amended        29 CFR Part 95
     Profit
                                          6/1/98            8/29/97




                                             ix
                                  AUDIT OBJECTIVES

Our overall objective was to perform a postaward survey to determine whether the grantees
had implemented and/or adequately planned for the financial management, program
delivery systems and internal controls necessary to account for and safeguard Federal
funds and achieve the purpose of the grant. Additionally, this survey was designed to
follow up on the results of the first round survey, and determine whether second round
competitive grantees were experiencing similar problems and vulnerabilities identified in
the first round grantees.

Our subobjectives were to determine whether:

           C financial management systems and internal controls are adequate to provide
             reasonable assurance that Federal funds would be adequately safeguarded and

              that expenditures are reasonable, necessary and allowable under the grant,

           C planned program management and delivery systems are adequate to achieve
             the purpose of the grant,

           C planned financial and programmatic reporting systems can be relied upon to
             produce accurate, complete and timely reports that are traceable to source
             documentation, and

           C systems/controls are in place and/or being developed to ensure compliance
             with applicable laws, regulations and program requirements.

We believe these postaward surveys provide an early assessment of grantee operations and
can be used as a basis to identify problems and avoid future administrative findings and/or
questioned costs.




                                             x
                            SCOPE AND METHODOLOGY

During July 1998, OIG developed a postaward survey guide for the first round of
competitive grants. The guide was designed to assist the auditors in assessing the grantees’
financial and performance systems. The survey guide was slightly updated for the second
round competitive grant surveys.

We performed onsite surveys of 12 second round WtW competitive grantees selected on a
judgmental basis. We reviewed the grant agreements, subrecipient agreements, and other
relevant documents which included policies and procedures.2 Additionally, we interviewed
a number of key staff members as to their roles in implementing the WtW program. We
evaluated the grantees’ ongoing and/or planned operations to assess their capabilities to
implement the WtW program and comply with Federal requirements. Fieldwork for the 12
grantees was conducted by the Chicago, New York and Philadelphia Regional Audit
Offices during the period March 1999 through June 1999. (See Appendix 4 for a listing of
the grantees reviewed and dates of the fieldwork.)

In total, we surveyed 12 grantees which received $47,895,994, representing 18 percent of
the $273,287,751 awarded during the second round of competitive grants. During our
survey, we determined whether the grantees had adequately planned for or implemented
operational internal control structures governing grant assets and financial and
programmatic systems. We also evaluated the grantees’ capacity to properly administer
the WtW competitive grants in accordance with regulatory requirements. Our
examinations were performed in accordance with Government Auditing Standards issued by
the Comptroller General.




       2
        We have included in Appendix 6 some of the areas we suggest be considered for
inclusion in the WtW policies and procedures for 9 of the 12 grantees.

                                             xi
                         FINDINGS AND RECOMMENDATIONS

1. Second Round Grantees Face the Same Vulnerabilities as Previously Reported

We determined during our survey of second round grantees, as with the first round, that
grantees have the overall capability, including the necessary financial and management
information systems, to effectively administer their WtW competitive grants.

However, as we reported in our previous survey of 35 first round grantees,3 we found that
many of the second round grantees lacked adequate internal controls over financial
management systems to comply with cost limitations and did not have controls to comply
with management information and financial reporting requirements. Additionally, we
found that these grantees usually did not have formal agreements with local TANF
agencies, had not developed formal eligibility procedures, and lacked written WtW
policies and procedures.

The findings matrix in Appendix 1 demonstrates that second round grantees faced similar
conditions and experienced frequencies of occurrences as did the first round grantees in
the areas of:

       1. Inadequate internal controls governing grantee financial and management
          information systems over:

                (a) cost limitations,
                (b) program data, and
                (c) financial reporting.

       2. Inadequate WtW grantee policies and procedures regarding:

                (a) formal agreements with TANF agencies,
                (b) formal eligibility procedures, and
                (c) other written WtW operating plans and practices.

       3. Potential violations of the Fair Labor Standards Act (FLSA) and noncompliance
          with the “work-first” requirement.

In our previous audit report, we recommended that the Assistant Secretary for Employment
and Training take actions to ensure that WtW grantees develop the necessary controls over
financial and management information systems, financial reporting, and encourage formal
agreements and procedures to ensure compliance. We believe our current findings and
recommendations reinforce the need to implement the first round recommendations.
Therefore, we do not offer any additional recommendations for the same vulnerabilities
experienced by the second round grantees and ultimately facing the third round grantees.


       3
           Audit report number 05-99-008-03-386, issued March 24, 1999.

                                              1
In addition, our review of the second round grantees found a number of programmatic
issues that varied from those identified in our previous survey of the first round grantees.
Therefore, the findings in this report will address only the new and slightly different
issues, organized according to financial management, policies and procedures, and
programmatic compliance findings.

In the area of financial management, we found inadequate internal controls over cost
allocation plans for multi-funded grantees, cash management and other fiscal integrity
concerns, inadequate time and attendance record keeping, and allocation of program costs
without enrollments. We also found that policies and procedures need strengthening by
formalizing agreements with subrecipients and developing written monitoring procedures.
Finally, we found inadequate internal controls over programmatic compliance issues
related to unallowable evaluation studies, grant provisions which need modification to
establish viable goals and outcomes, and underdeveloped start-up activities for child care
and transportation services.

Agency Response and Auditor’s Conclusions

In responding to our draft report, the Assistant Secretary for Employment and Training
commented that our report made reference to potential Fair Labor Standards Act (FLSA)
violations, but this issue was not discussed in any of the Round two grants that were
reviewed. The Assistant Secretary further stated that ETA continues to work with a number
of grantees where this issue surfaced, and would like a more specific reference regarding
the Round two grantees affected by this issue. (See Appendix 7 for the Agency’s complete
response.)

FLSA and other issues were addressed in our first round report, with corrective actions
planned. Appendix 1 of this report identifies three second round grantees with FLSA and
“work-first” issues, as well as other second round grantees with parallel findings from the
first round. We decided against repeating such findings since the recommendations are
unchanged from our first round report. Complete descriptions of these findings are
contained in the individual postaward surveys for each grantee. The three second round
grantees with FLSA and ‘work-first” issues are:

              S Full Employment Council
              S Action for Boston Community Development
              S Alexandria Redevelopment and Housing Authority




                                              2
2. Inadequate Internal Controls Over Financial and Management Information
Systems

In addition to sharing the vulnerabilities we reported for the first round grantees, we found
other problems related to financial and management information systems during the
second round survey. These include the need to strengthen internal controls over:

       a.   cost allocation plans for multi-funded grantees,
       b.   cash management and other fiscal integrity concerns,
       c.   inadequate time and attendance systems, and
       d.   reporting program costs with a basis for allocation.

a. Cost Allocation Plans for Multi-funded Grantees

While all 12 grantees have operations which are funded by several sources, 8 grantees
(67 percent) either did not have an approved Cost Allocation Plan (CAP) or had plans that
needed to be modified to allocate indirect costs to those funding sources which received
common benefit from expenditures incurred. The Special Clauses and Conditions section
in the grants require grantees to obtain an approved CAP or indirect cost rate. Also, under
certain circumstances, the grantee may obtain approval of a special indirect cost ceiling or
a temporary billing rate. The following discusses the circumstances of one grantee which
was given an indirect cost ceiling, two which needed to update their plans, and five grantees
that did not have approved CAPs.

One grantee with an administrative cost ceiling budgeted at $750,000 and an approved
indirect cost ceiling of $200,000, has administrative costs consisting of both direct and
indirect costs. The grantee had planned to charge its indirect costs based simply on a
percentage of the indirect cost ceiling. However, costs charged to the program must be
based on actual expenditures. The cost allocation plan should include a methodology for
allocating indirect and direct costs to the funding sources that benefit from the actual
incurred expenditures.

Two other grantees needed to update their CAPs or indirect cost rates. The first grantee’s
CAP required updating to ensure that it provides the justification and methodology for
establishing accruals at the end of each calendar quarter, instead of annually, as planned.
The second grantee has an approved indirect cost rate. The plan needs to address the
allocation of administrative and technology/computerization costs on the Quarterly
Financial Status Report (QFSR).

We also found five grantees that did not have CAPs or indirect cost rates. Two of the five
grantees plan to charge only direct costs to the WtW program. Charging indirect costs and
establishing cost pools are not planned nor do the grantees believe a cost allocation plan or
indirect cost rate needs to be developed and approved. However, this approach may result
in other Federal programs being charged for some indirect costs attributable to the WtW
program. Moreover, charging costs directly to the WtW program still leaves a cost
allocation strategy to be developed for allocating to the 70/30 percent participant groups
on the QFSR.

                                              3
The other three grantees did not have cost allocation plans or indirect cost rates approved
by DOL’s Office of Cost Determination (OCD). We suggested that the three grantees
submit their cost plans with supporting documents to OCD for approval.

In all eight cases, the grantee CAP or auxiliary plan should address the equitable
distribution of all costs, including the administrative costs and technology/computerization
expenditures, which must be allocated in accordance with the 70/30 percent criteria
provisions of 20 CFR 645.212 and 645.213 and reported on the QFSR.

An approved CAP is essential for accurate identification, accumulation and reporting of
costs associated with the WtW program. A CAP is even more critical when the program is
administered by an organization operated with funds provided by several different funding
sources. Moreover, accurate reporting of costs is essential to effectively manage the
WtW program at the grantee and Federal levels.

b. Cash Management and Other Fiscal Integrity Concerns

Three grantees (25 percent) need to establish better internal controls over cash
management to ensure that WtW cash available to them and their subrecipients will be
handled in accordance with the requirements of the grant agreement and Federal
regulations. Another two grantees had provisions for program income which should be
used to further program activities. In addition, other fiscal integrity concerns involved
appropriate controls over various financial circumstances which could expose WtW funds
to the risk of unauthorized use.

Cash Management

Two grantees violated cash management requirements by maintaining cash balances in
excess of their immediate cash needs. One grantee maintained a cash balance of $9,741
for a period of
35 days, which increased to $25,425 over the next 12 days. Incurred costs for the period
totaled $18,739, or a difference of $6,686. A second grantee maintained a cash balance in
excess of $400,000 over a period of 14 days.

For higher education and nonprofit organizations, cash drawdowns must be based on
immediate cash requirements according to 29 CFR 95.22(a), which states, “Payment
methods shall minimize the time elapsing between the transfer of funds . . . and the issuance or
redemption of checks. . . .” Additionally, 29 CFR 95.22(l) requires that interest over $250
earned on advances shall be remitted annually to the Government. Finally, the grant
stipulates that payments are to be drawn down as needed to cover a 48-hour period of
expenditures.

For State and local governments, a grantee has an obligation under the cash management
requirements in 29 CFR 97.20(7) which states, “. . . grantee must make drawdowns as close
as possible to the time of making disbursements. . . .” Additionally, 29 CFR 97.21(i) requires
that interest over $100 earned on advances shall be promptly remitted to the Government.

                                                4
Again, the grant stipulates that payments are to be drawn down as needed to cover a 48-
hour period of expenditures.

When institutions of higher education or private nonprofit organizations are funded on a
cost reimbursement basis, OMB Circular A-110.22 (f) states, “. . . the Federal awarding
agency shall advance cash to the recipient to cover its estimated disbursement needs for an
initial period generally geared to the awardee’s disbursing cycle. Thereafter, the Federal
awarding agency shall reimburse the recipient for its actual cash disbursements. . . .”

A third grantee which is a nonprofit organization, planned to be on the reimbursement basis
for cash drawdowns associated with the WtW program. However, subrecipient contracts
contain a provision for cash advances up to 20 percent of the subrecipient contracts. This
provision would exceed the Federal cash management requirements, because it is not tied
to the subrecipients’ disbursing cycle.

Program Income

The grantee with the $400,000 cash balance also expects to earn program income from
activities such as TANF reimbursements for child care and for transportation. In addition,
the grantee may receive child care payments from WtW participants and charge
participants $1.00 per van ride. Program income can be used only to provide additional
services to WtW participants. Therefore, the grantee needs to include in its program
budget an estimate of the income expected to be earned and the expected uses of those
funds in accordance with requirements to provide additional services to WtW participants.

Another grantee’s WtW program contains a component which involves a 16-week
internship at participating investment firms or partnering agencies. Participants earn $6 an
hour and are paid through a combination of JTPA Title II-A funds and other non-WtW grant
funds. However, the employers pay the grantee $8 an hour for the participant’s
work. Since the participants are paid $6 an hour with Federal funds, we consider the $8 an
hour payment to the grantee to be program income and should be used to further the
program objectives. [29 CFR 95.24(a)]

Other Fiscal Integrity Concerns

Four grantees’ financial circumstances indicated a potential risk that WtW funds may be
used for non-WtW activities. One grantee had a projected $193,210 cash flow shortfall
for Fiscal Year 1998 regarding its non-grant operations. Subsequently, its defined benefits
pension plan was frozen to help eliminate a shortfall and the grantee restructured its debt
during February 1999. A second grantee planned to use WtW funds to purchase books and
uniforms available under a TANF grant. TANF would reimburse WtW for the expenditures
at a later date. However, this arrangement was not provided for in the grant agreement and
depending on the timing of such transactions, may distort the reporting of WtW
expenditures for the period.

Another grantee (this grantee also had cash management issues) uses off-the-shelf paper
for printing payroll checks and vendor payments. The computer system generates the

                                              5
approving officials’ signatures on the checks. It is our understanding that the payment
process is self-contained in the controller’s department. However, the department does
not have specific controls over the custody of the unused (un-printed) check paper. The
check printing system also allows previous checks to be reprinted using the computer
generated check number.

A fourth grantee’s internal controls required a listing of authorized signatures for receiving
funds through the Department of Health and Human Services (DHHS) Payment
Management System. Because the listing is held by the Grant Officer’s Technical
Representative (GOTR) in the ETA regional office, the effectiveness of this control may
be weakened. We suggested that the grantee also maintain a copy of the signatures in its
files.

c. Inadequate Time and Attendance Systems

Five grantees (42 percent) have not established adequate time and attendance systems to
accurately identify and allocate time devoted to the WtW grant activities. As a result,
allocation of incurred costs that benefit eligible WtW participants were not properly
controlled to ensure the WtW funds would pay only for allowable activities.

For State and local governments, OMB Circular A-87, Attachment B.11.h(4) requires that
distribution of salaries or wages paid to employees working on multiple (Federal and non-
Federal) activities or cost objectives must be supported by a personnel activity report or
equivalent documentation which accounts for the total time and activities for which each
employee is compensated. In addition, DOL regulations at 29 CFR 97.20(6) state in part
that, “. . . Accounting records must be supported by such source documentation as canceled
checks, paid bills, payrolls, time and attendance records. . . .” Similar requirements are
defined for higher education and nonprofit organizations in 29 CFR 95.21(b)(7).

Two grantees planned to either allocate staff hours to the WtW program or charge the
salaries of certain staff, such as a job developer, using predetermined percentages of time
or budgeted dollar amounts included in their proposals. For instance, because 25 percent
of the WtW Director’s salary was proposed in the budget, 25 percent would be charged to
the WtW program without further supporting evidence that 25 percent was the correct
allocable amount to be charged. Similarly, a third grantee had no timekeeping
requirements for allocating salaries of managers and staff to program activities, as defined
by the activities in Section I and Section II of the Quarterly Financial Status Report, and the
70/30/15 percent cost limitation categories.

Salaries of managers and staff may not be allocated to program activities using
predetermined percentages or charges. Therefore, actual time spent on activities should be
supported by time and attendance records including timesheets and a time distribution
system.

A fourth grantee did not have a time and attendance system in place. The director was on
salary with another Federal agency. She planned to charge the WtW program for time
spent outside of her normal working hours of 8 a.m. to 5 p.m. Time charges included work

                                               6
conducted at the office and at home. However, the director was available for our survey
inquiries regarding the WtW program during the 8 a.m. to 5 p.m. period, for which the
other Federal program was paying her salary. The grantee’s current method of recording
the number of hours worked on timesheets for only WtW activities, does not fully comply
with Federal timekeeping requirements.

A fifth grantee does not require its staff to complete a timesheet or to sign in or out of the
office. The grantee is currently developing a new personnel manual that will include
additional time and attendance procedures.

A complete time and attendance system would include a daily sign-in/out log with times
for beginning and ending work hours. The total hours worked would be incorporated into a
timesheet showing the number of hours worked per day on various programs, activities and
cost categories. The timesheets would be signed by the employee and a supervisor who
reviews the time charges and compares the hours reported on the timesheets to the daily
sign-in/out log. Time distribution reports would summarize the charges according to the
programs, activities and cost categories.

In these cases, time and attendance records are necessary to accurately identify and
accumulate costs associated with the WtW grants and authorized activities. Time
distribution reports are a necessity for all activities for which the staff is receiving salaries
and wages from multiple funding sources, whether the funds are provided from other
Federal programs or non-Federal programs. OMB Circulars A-87, A-21 and A-122
(Federal Cost Principles) require that personnel costs charged to Federal programs be
supported by time and attendance records. If an individual’s salary is funded by more that a
single program, a time allocation system must support the personnel costs charged to
Federal programs.

d. Reporting Program Costs Without a Basis for Allocation

Seven grantees (58 percent) did not have enrollments4 at the time of our review (see
Appendix 5). Six of the seven grantees had incurred costs as of our visit. Some of the
grantees either reported expenditures based an arbitrary allocation, or had not distributed
costs according to cost categories. In some cases, there were no participants to establish a
basis for the allocation. As a result, the funds being allocated and reported did not
accurately represent the actual costs of services provided to the 70 percent (required
participants) or to the 30 percent (permitted participants).

Welfare-to-Work legislation requires that at least 70 percent of grant funds must be spent
for those welfare recipients who will have the most difficulty moving from welfare to
employment. Essentially, these are long-term welfare recipients who have two of three
specified barriers to employment: (1) did not obtain a high school diploma or GED and
has low reading or math skills, (2) requires substance abuse treatment for employment, or
(3) has a poor work history. The legislation also permits up to 30 percent of the funds to


       4
           One grantee’s only enrollment came after reporting incurred costs on the QFSR.

                                                7
be spent on welfare recipients who have characteristics of long-term welfare dependence,
such as dropped out of school, teenage pregnancy or poor work history. As a consequence
of these requirements, funds spent by the grantees must be accounted for according to the
70/30 percent cost split.

We found that two grantees without enrollments (during the period) reported incurred
costs on the QFSR. The first grantee reported $16,923 in administrative expenditures as
their only cost category. A second grantee did not have an enrollment until after the first
quarter and reported incurred costs of $14,423 on the QFSR (for the period ending
3/31/99). However, the incurred costs did not have a basis for allocation, since there were
no enrollments. Therefore, the $14,423 in total Federal expenditures and $8,374 in
administrative costs were the only cost categories reported. Expenditures were not
reported on line five which distributes costs to the 70/30 percent participant groups.
Future reports should be adjusted for this discrepancy and costs redistributed to the 70/30
percent required categories with supporting documentation for the rationale used.

Another grantee with 29 enrollments reported $60,639 in Federal expenditures and $4,130
in administrative costs on the QFSR. The entire $60,639 was charged to the 70 percent
cost category (minimum required beneficiaries).

Most grantees, by necessity, expended funds for grant administration and establishment of
the infrastructure for the WtW program before participants were enrolled. For instance,
grantees paid salaries and fringe benefits to their staff, and incurred travel costs for staff to
attend training provided by ETA. Other start-up activities were funded, such as costs for
space requirements, start-up supplies and equipment.

These costs will ultimately benefit eligible participants once they enter the WtW program.
However, the program requires the allocation to be made based on the characteristics of
the eligible population served and the benefits received. Therefore, without enrollments,
the allocations cannot reflect the actual distribution and do not represent the information
intended when the requirement was established.




                                                8
Recommendations:

We recommend that the Assistant Secretary for Employment and Training provide
guidance and assistance to all grantees regarding the need to:

       S      develop cost allocation plans, if the grantee receives funds from different
              funding sources to carry out their programs;

       S      develop cost allocation plans to distribute all costs to the 70/30 percent
              required cost categories and to WtW program activities;

       S      use WtW funds for only grant purposes and to comply with cash management
              requirements; and

       S      comply with the time and attendance requirements in the OMB circulars.

We also recommend that the Assistant Secretary issue instructions to:

       S      establish a consistent methodology for allocating and reporting costs
              incurred before substantial enrollments have occurred. ETA may elect to
              arbitrarily allocate incurred costs to the 70/30 percent categories, or may
              elect to delay allocations until some specified number or percentage of
              program enrollments are made. In either case, grantees must be instructed to
              redistribute to the 70/30 percent categories (as enrollments are
              accomplished) those funds spent and reported before enrollments occurred.

Agency Response and Auditor’s Conclusions

In responding to our draft report, the Assistant Secretary for Employment and Training
stated:

       “. . . we plan to issue policy guidance on a number of new fiscal and eligibility issues that
       have emerged over the course of program implementation. In addition, we plan to issue
       policy guidance to our WtW competitive grantees reiterating policies that are already in
       place.” (See Appendix 7 for the Agency’s complete response.)

We concur with the Agency’s planned corrective actions.




                                                 9
3. WtW Grantee Policies and Procedures Need Strengthening

We found that many of the 12 second round grantees lacked formal agreements with TANF
agencies, formal eligibility procedures and written WtW policies and procedures. New
issues addressed in this report include the lack of written agreements with subgrantees and
service providers, and the lack of written oversight and monitoring procedures.

a. Lack of Formal Agreements with Subrecipients and Service Providers

Four grantees (33 percent) have not developed formal agreements with subrecipients that
fully define the roles and responsibilities of each agency. Informal relationships and
procedures could lead to misunderstandings for grantees in complying with WtW
requirements and program delivery. Therefore, it is in the grantee’s best interest to reduce
to writing their relationship with their subgrantees so that each agency’s roles and
responsibilities can be clearly defined.

DOL regulations at 29 CFR 95.47-48 require recipients to define a sound and complete
agreement to ensure contractor conformance with the terms, conditions and specifications
of the contract and to ensure adequate and timely follow up of all purchases. The
regulations further direct recipients to evaluate contractor performance and document
whether contractors have met the terms, conditions and specifications of the contract.
Agreements with the subgrantees should include a description of the services to be
performed, applicable performance standards, and a detailed project budget. The
agreements should also include statements of assurance that the subgrantees will adhere to
Federal regulations including eligibility requirements, OMB Circulars, and DOL reporting
requirements.

One grantee believes that transportation will be a significant portion of the support
services offered to participants, once they start working. As of April 1999, the grantee did
not have a contract in place to provide the transportation services nor has the grantee
developed monitoring procedures. Based on responses from existing transportation
companies surveyed earlier in the year, a better description of the transportation services
needs to be developed before a Request for Proposals (RFP) is issued. The description
should include clarification of what type of costs are acceptable, comparison with other
available transportation offered, and identification of any unique costs (such as
administrative or direct costs) related to the services.

Three other grantees do not have written agreements with their subgrantees which provide
for the terms and conditions of their relationships. Written agreements with subrecipients
are important to assure sound and complete agreements. The written agreements provide
assurance that the terms, conditions and specifications will be met.




                                             10
b. Lack of Written Oversight and Monitoring Procedures

Three grantees have not developed written subgrantee and participant worksite oversight
and monitoring procedures. As a result, these grantees do not have an established
methodology to determine whether the subgrantees and worksites are performing program
services in compliance with WtW requirements.

DOL Regulations at 29 CFR 95.51 establish that recipients are responsible for managing
and monitoring each project, program, subaward, function or activity supported by the
award and that recipients shall monitor subawards to ensure subrecipients have met the
audit requirements of Sec. 95.26.

Two grantees need to develop written oversight and monitoring procedures for all of their
subgrantees and worksites. A third grantee’s monitoring procedures do not include
provisions for periodic review, verification and reporting of program accomplishments and
documentation from external parties to corroborate information reported by the
subgrantees. The grantee’s oversight and monitoring procedures should also include
guidance for reviewing activities at both the recipient and subrecipient levels, issuing
monitoring reports and resolving findings.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training issue guidance
to emphasize:

        S     development of formal written agreements between the grantees and their
              subrecipients and service providers to avoid misunderstandings and ensure
              proper administration of the WtW grants; and

        S     the need to develop formal written procedures to provide oversight and
              monitoring of program operations at subgrantees and participant worksites.

Agency Response and Auditor’s Conclusions

In responding to our draft report, the Assistant Secretary for Employment and Training
stated:

       “In those instances where your report indicates a need for specific follow-up, we will
        instruct GOTRs to ensure that grantees are implementing corrective actions where
        appropriate.” (See Appendix 7 for the Agency’s complete response.)

We agree with the Agency’s planned corrective actions.




4. Internal Controls Over Programmatic Compliance Need Strengthening



                                               11
Our review of the second round grantees found a number of programmatic issues that
differed from those identified in our previous report. The new issues are briefly described
in this paragraph and in more detail on the following pages. We found that some of the
grants included funds for evaluation studies which may not be an allowable activity. We
also noted other miscellaneous issues which may require modifications to the grants to
establish viable goals and outcomes. Moreover, two grantees failed to provide fully
developed plans for start-up activities for child care and transportation which would ensure
that these services would be completed in time to benefit current grant participants.

a. Grants Included Evaluation Studies Which May Not Be An Allowable Activity

We found 3 of the 12 grants (25 percent) contained provisions for evaluation studies.
Such evaluation studies are not included in the allowable activities found in section
645.220 of the WtW regulations and provide no service or benefit to current participants.
If the evaluation studies were allowed, they would use significant portions of the funding
earmarked to help welfare participants find and keep employment. The three grants with
evaluation studies are as follows:

   C          The first grant contained a contract with a university for a $118,650 study to
              identify employers in the area that have hired welfare participants in the past
              and evaluate the commuting requirements for those participants.

   C          A second grant contained a $196,048 proposal to become part of a national
              impact and cost-effectiveness evaluation study. The arrangement for the
              study was with a local community college on a reimbursement basis. It
              appears this evaluation study was an addition to the original budget narrative.


   C          A third grant contained an addendum with provisions for a proposal for a
              $160,000 impact and cost-effectiveness evaluation project on a
              reimbursement basis. There was no indication in the grant that the study was
              approved or funded. The study would provide opportunities for learning
              about effective strategies for hard-to-employ recipients, while providing
              work experience and post-employment training and services.

The three grants included a total of $474,698 for evaluation studies. Under provisions of
§ 645.235(b)(1)(ix) of the WtW regulations, the cost of, “Evaluating program results
against stated objectives . . .” is an allowable administrative cost (subject to the
administrative cost limitation). However, the costs of research or other related studies,
unless specifically tied to a direct participant service to be provided in the course of the
grant, are not allowable.

The purpose of WtW grants is to place and retain individuals into lasting unsubsidized
employment. For costs to be allowable under WtW, funds must be spent on authorized
program activities, be allocable to the grant, and be necessary and reasonable for proper
and efficient performance and administration of the award. The Balanced Budget Act and
WtW regulations provide operating entities with a comprehensive list of allowable

                                             12
services which the entities may provide to eligible WtW participants to help move the
participants from welfare dependency to lasting unsubsidized employment and economic
self-sufficiency.

Allowable activities authorized by WtW regulations are summarized in Appendix 3 to this
report. None of these listed activities include provisions for evaluation studies.
Furthermore, funds appropriated for WtW for fiscal years 1998 and 1999 include a set-
aside of $18 million for program evaluations. We believe that the funds budgeted for
evaluation studies do not meet the requirements to be allowable WtW costs.

The first grant which included an evaluation study contains provisions for a 30-month
agreement with a university. The $118,650 agreement requires the university to provide
new information to the grantee about the location and basic descriptors of the kinds of
businesses that hire, retain, and train welfare recipients. This agreement is part of a larger
study scheduled to take place in four other metropolitan areas across the nation. The
population to be studied is AFDC/TANF recipients for the period beginning July 1990 to
the present. The study planned to match welfare participants in the metropolitan area with
wage records. The historical welfare information also would have been used to identify the
spatial structure between welfare participants and employer addresses in the transition
from welfare to work.

The other two grants contained proposals for an impact and cost-effectiveness evaluation
studies. The grantees would like to participate in the national initiative. However, the
budgets for these grants do not clearly show the availability of funds for the studies.
Therefore, neither the grants nor the proposals were clear as to the source of funds to pay
for the studies. The grant documents indicated only that the evaluation studies would be
funded on a reimbursable basis.

We consider these evaluation studies to be unallowable activities. The studies do not
provide direct benefit to current participants. It is our opinion that the studies should be
removed from the grant, and costs of the studies reallocated to activities that directly serve
participants.

b. Other Grant Provisions Need to be Modified

Our review identified seven grants that need to be modified so that the documents serve as
a bona fide agreement and useful management tool. Specifically, we found that grants
needed to be modified to acknowledge the effects of changes in funding levels,
performance measurement and schedules, to record the transfer of the administrative
agency, and for changes requiring the grant officer’s approval.


Reduction in Funding

The performance measurements need to be modified for one grantee to reflect a 25
percent reduction in program funding. Originally, the grantee requested $6,626,081 in
funding, but $5,000,000 was awarded. However, the performance measurements in the

                                              13
grant were not changed and are still based on the original funding levels. We also noted
that the budget summary agrees with the award amount, however, the budget narrative has a
shortage of $448,095. The budget narrative needs to be revised to agree with the grant
award and the budget summary.

Implementation Schedule

The implementation schedules for five grantees need to be adjusted to reflect realistic
performance standards. A couple of the implementation schedules were based on the
WtW programs which were expected to start in late calendar year 1998. However, the
grants were not awarded until January 1999 and some of the grantees did not have
enrollments even at the time of our reviews, which were performed during the second
quarter of this year. The following is a brief description of adjustments that need to be
made:

   C          The implementation schedule for the first grantee shows 120 enrollments
              for the period through June 1999. Since the grantee does not anticipate
              enrollments until June, the implementation schedule needs to be modified to
              reflect a more realistic enrollment timetable.

   C          A second grantee does not expect any enrollments until May 1999. The
              implementation schedule in the grant shows 200 enrollments by the end of
              May. Again, this schedule may need to be revised to show realistic
              performance goals.

   C          A third grantee’s implementation schedule shows that 280 enrollments and
              202 placements were planned by the end May 1999. At the end of April, the
              grantee had 139 enrollments and 32 placements based on their performance
              reports. One reason for not attaining the performance goals is that the
              implementation schedule begins in September 1998, while the grant was
              awarded 4 months later, in January 1999.

   C          A fourth grantee did not have any enrollments until April 1999. However,
              the implementation schedule in its grant indicated 20 enrollments for the
              first quarter and 38 enrollments in the second quarter.

   C          A fifth grantee may need to replace its outdated performance measurements.
              Enrollments in the WtW program are not expected until about June 1999.
              The implementation schedule shows 200 enrollments by the end of the June
              1999.

In order for the implementation schedule to be a useful tool, the schedules should be
modified to include realistic attainable periodic benchmarks.

Other Grant Modifications




                                             14
Besides revising the grants’ financial and performance data, we noted a number of
additional areas for which the grants need to be modified to ensure that the grantees are in
compliance:

   C          One grant was awarded to an agency of city government. The responsibility
              for the grant and the director transferred to a local nonprofit agency. The
              grant should be modified to reflect this change for proper oversight and
              administration of the WtW program.

   C          The same grantee also needs to revise its budget summary. The total direct
              cost (Line 8) should be revised to $5,000,000, instead of the current
              $4,311,087, which is the total for contractual costs.

   C          Additionally, this grantee requested changing the Project Administrator’s
              salary from $35,000 to $20,000; increasing the Project Coordinator’s salary
              from $35,000 to $40,000; and hiring a consultant at $10,000.

              The GOTR stated that the changes are allowable within Clause #1 of the
              Special Clauses section of the grant which states, “Flexibility is allowed
              within the grant budget (except wages, salaries and fringe benefits) provided no
              single line item is increased or decreased by more than 20%. Changes in excess
              of 20% and any changes in wages, salaries and fringe benefits, MUST receive
              prior approval from the Grant Officer. Any changes in mix or match with the
              wages and salaries line does not require a grant modification. . . .” However,
              transferring $10,000 of the funds from salaries to fees for a consultant
              would be outside the range of wages and salaries, and therefore, would
              require the Grant Officer’s approval.

  C           A second grantee needs to revise its grant by including fiscal staff salary
              expenses in the budget; provide a description for issuing payments to
              participants for referral of family and friends; and revise the disbursement
              payments to participants for up to $300 for support services. Currently, the
              grant indicates that the $300 paid on behalf of the participant would be a
              reduction from the $1,800 post-employment retention voucher.




                                              15
c. Start-up Activities to Provide Child Care and Transportation Services Are Not
Fully
   Developed

Two grantees did not fully develop plans on how to spend $4.8 million budgeted for child
care and transportation services. Because important aspects of the plans were not finalized
(e.g., one of three child care sites was not yet determined, and questions exist regarding
the timing and need to purchase 30 vans), it is uncertain whether the services would be
implemented in time to serve current WtW program participants.

Controls should be in place for reviewing grantees’ plans which consists of letters
indicating local concurrence and ETA’s grant award process. The award process is used to
review the grantee’s plans submitted in the proposal for grant funds. ETA encourages
coordination between the Private Industry Council (PIC), the grantee, TANF and others.
We believe such coordination is essential for effective child care systems and for
effective transportation systems. ETA Guidance Letter 10-98 states that, “PICs are
expected to coordinate local community resources to provide transitional employment
assistance (particularly supportive services such as child care and transportation) to the WtW
population.”

Our review found that plans submitted by these two grantees in their proposals for WtW
funds were not fully developed, and may not materialize as planned. The result may
engender significant sums of grant funds available for reprogramming. We believe that
ETA should closely monitor the development of these plans to ensure WtW funds are used
effectively and efficiently to serve the current grant participants.

Child Care Centers

One grantee budgeted $1,927,456 of WtW funds for three child care facilities. Two sites
have been located, but are not open, and the grantee has not located a site for the third (the
largest) child care facility. Included in the budget are routine expenses for salaries and
fringe benefits of as many as 53 workers (who will be program participants), including
child care workers, healthcare workers, food service workers and guards. In addition to the
$1.9 million, the grant also provides $600,000 for renovation at the child care sites.
Whether all of the budgeted funds will be spent is contingent upon many factors, including
whether all of the sites are needed to service participants, the condition and suitability of
the selected facilities for child care and any delay in getting started related to the need to
complete facilities’ renovations, and the numbers and locations of the participants and
their children. Should the needs be significantly less than the projections made, then
significant sums would need to be reprogrammed to other uses authorized by the WtW
legislation.

To differentiate the grantees’ plans from currently available child care, the grant states that
“. . . none of these facilities (child care facilities) offer support in the case of a sick child which
may keep the parent from reporting to work and there is no 24-hour child care service in the
area to serve parents who may work on second and third shifts. Moreover, there is a limited
availability of after-school licensed or registered care.”

                                                  16
Nevertheless, county government estimates that there are several hundred child care
facilities in the area. Additionally, an earlier study projected that 45 percent of the
facilities offer second and third shift child care. Moreover, the grantee is currently using
local child care providers for the children of enrolled WtW participants. We believe these
facts support our conclusion that ETA should closely monitor the progress being made by
the grantee and elicit local community comments regarding the need for and economy of
the grantees’ child care activities.

Construction

The second grantee plans to use WtW funds to lease space in a church for child care and
use $55,000 in WtW funds to renovate the restrooms to allow for wheelchair access
(Americans with Disabilities Act requirement). This renovation and the $600,000 planned
renovation of the first grantee may conflict with the prohibition of using Federal funds for
construction or purchase of facilities or buildings, except where there is explicit statutory
authority permitting it. The grantees’ approved budgets identified the renovation projects.
However, these renovation projects may rise to the level of construction and therefore
should be closely monitored for compliance with the prohibition on construction.

Transportation

The first grantee budgeted $540,000 of its WtW funds to purchase 30 vans to provide
transportation for eligible participants to and from interviews and worksites so that
participants can obtain and retain jobs. The budget also provides for transportation to take
participants’ children to child care facilities. An additional $700,568 of WtW funds were
budgeted to cover operating and maintenance costs, including 15 van drivers’ salaries and
fringe benefits ($348,480). These drivers are expected to be participants. The grantee has
purchased three vans to date. The vans purchased in the future will be used for only 2
years, or less, before the grant expires. Lease versus purchase analysis [as stated in OMB
Circular A-110.44(a)(2)] and better coordination with local agencies might lead to a more
cost effective transportation system.

The local Transit Authority, in a letter to the grantee dated May 25, 1999, expressed its
concerns regarding the grantee’s transportation system, stating:

  1) The van service will cause duplication of transit services in the local area.

  2) Duplication may cause the Transit Authority drivers and mechanics to lose
     employment.

  3) Scheduling and dispatch capabilities will soon be overwhelmed by individual WtW
     participant transportation demands.

  4) Insurance requirements for the type of van service planned by the grantee are
     significant and may be cost prohibitive.

However, the grant states, “The City . . . will work with the Work First Program and (the)

                                              17
Project . . . to provide job placements, develop a mini-transportation system and provide on-
the-job training sites and mentors.”

The second grantee planned to devote $125,000 of WtW funds to cover the costs involved
in transporting participants to jobs in the local area. The Red Cross will provide three vans
for this transportation project and will employ participants as van drivers.

The plans of these grantees are subject to contingencies similar to those impacting the
child care plans. Budgeted funds are contingent upon factors such as whether all of the
planned vans and drivers are needed to service participants and the locations of participants
and their children. Contingencies also include the availability of alternative transportation.
Should program needs be significantly less than the projections made, significant sums
would need to be reprogrammed to other uses authorized by the WtW legislation.

In each of these cases, we conclude that child care and transportation services should be
made available when and where needed, for all eligible WtW participants. ETA should
carefully monitor the plan and ensure timely implementation. We believe the options of
purchasing or leasing services, rather than buying expensive equipment or making
renovations to properties, should be considered if extended delays become apparent. The
start-up activities will not be ready immediately, and may not be used by the WtW program
for an extended period of time.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training ensure that:

  S    budgeted funds for evaluation studies are reallocated to allowable activities
       authorized by the Balanced Budget Act and WtW regulations;

  S    grants are modified, as necessary, to reflect final funding levels, performance goals,
       and that budget narrative statements agree with the award amounts;

  S    grantees do not violate prohibitions of using Federal funds for construction; and

  S    GOTRs closely monitor the progress of the child care and transportation services
       to ensure the operations of these facilities and services are cost effective and
       completed in time to serve current WtW program participants.




                                               18
Agency Response and Auditor’s Conclusions

In responding to our draft report, the Assistant Secretary for Employment and Training
stated:

       “In those grants that included an inappropriate evaluation component, we will follow-up
       to ensure that these costs are removed from the relevant grant documents. In addition,
       we will ensure that unallowable evaluation activities are not included in Round 3 grant
       awards.”

       “We are in the final planning stages for WNW (sic) Financial Management training in
       four locations around the country (Washington, D.C., Atlanta, GA, Dallas, TX, and Los
       Angeles, CA). These sessions will be offered in October and November, and a final
       Session will be offered in the Round Three competitive grantees at their orientation
       session in January. Wherever possible, we are incorporating findings from your reports
       into the training curriculum.” (See Appendix 7 for the Agency’s complete response.)

We concur with the Agency’s planned corrective actions.




                                             19
                                                                                                                     Appendix 1

           Second Round Grantees with Parallel Findings From the First Round




                                                                         Finding 1

                                                                                                                      Grants Need
                           Inadequate                    Inadequate         Lack of                       Lack of      to Comply
                                          Inadequate       Internal
                             Internal                                       Formal     Lack of Formal     Written      with Work
                                          Management    Controls Over
                          Controls Over                                   Agreements     Eligibility     Policies       First and
                                          Information     Financial
                               Cost                                        with TANF    Procedures         and            FLSA
                                            Systems                  5
                           Limitations                   Reporting         Agencies                     Procedures    Requirement
        Grantee                                                                                                             s
Chicago Housing
                                X                                                                           X
Authority
Columbus Urban
                                X             X                                                             X
League
Full Employment
                                                                                                                          X
Council
City of Gary,
Department of Health            X             X                                              X              X
and Human Services
Community and
Economic Development
                                X             X                                              X              X
Association of Cook
County
Wildcat Service
                                                                              X              X              X
Corporation
Action for Boston
Community                                                     X                                                           X
Development
Bennett College                 X             X               X                              X              X
San Diego Workforce
                                X                                             X              X
Partnership
Richmond Private
                                                              X               X                             X
Industry Council
District 1199C Training
                                X                             X               X                             X
and Upgrading Fund
Alexandria
Redevelopment and               X                             X               X              X              X             X
Housing Authority
Total Second Round
Grantees Per Finding
                                8             4               5               5              6              9             3

Percent of 12 Second
Round Grantees
                              67%            33%            42%              42%            50%            75%           25%

Total First Round
Grantees Per Finding
                               22             11             16              14             12             27             6

Percent of 35 First
Round Grantees
                              63%            31%            46%              40%            34%            77%           17%

                                                                                                                 Appendix 2
                                                                                                                 Page 1 of 2




          5
        For Round 2, the discussion of Inadequate Controls Over Financial Reporting
includes comments on Inadequate Management Information Systems. Additionally, the
FLSA and “Work-first” findings from the first round were combined for comparison with
the second round.

                                                              20
       Matrix of New or Slightly Different Findings for Second Round Grantees




                                                    Finding 2                               Finding 3


                                 Cost          Cash                                 Lack of
                              Allocation   Management                 Reporting     Formal        Lack of
                              Plans for     and Other    Inadequate   Program     Agreements      Written
                                Multi-         Fiscal     Time and     Costs         With      Oversight and
          Grantee
                               funded        Integrity   Attendance   Without a   Subrecipient  Monitoring
                              Grantees      Concerns      Systems       Basis          s        Procedures
Chicago Housing Authority         X                                       X
Columbus Urban League                           X                X        X
Full Employment Council           X                                       X
City of Gary, Department of
                                  X             X                X        X            X
Health and Human Services
Community and Economic
Development Association                                                                                  X
of Cook County
Wildcat Service
                                  X             X                                      X
Corporation
Action for Boston
                                                                 X        X
Community Development             X
Bennett College                   X             X                X
San Diego Workforce
                                  X             X                         X
Partnership
Richmond Private Industry
                                                X
Council
District 1199C Training and
                                  X             X                                      X                 X
Upgrading Fund
Alexandria Redevelopment
                                                                 X        X            X                 X
and Housing Authority
Total Grantees Per Finding        8             7                5        7            4                 3

Percent of 12 Grantees          67%           58%               42%     58%           33%               25%




                                                       21
                                                                                   Appendix 2
                                                                                   Page 2 of 2


Matrix of New or Slightly Different Findings for Second Round Grantees




                                                     Finding 4

                                                                    Start-up
                                                                   Activities to
                                                                  Provide Child
                                                                    Care and
                                       Grants     Other Grant    Transportation
                 Grantee              Included    Provisions      Services Are
                                     Evaluation   Need to be        Not Fully
                                       Studies     Modified        Developed
       Chicago Housing Authority                       X
       Columbus Urban League                           X
       Full Employment Council           X             X
       City of Gary, Department of
                                         X             X
       Health and Human Services
       Community and Economic
       Development Association                         X
       of Cook County
       Wildcat Service
       Corporation
       Action for Boston
                                                       X
       Community Development
       Bennett College                                                 X
       San Diego Workforce
                                         X             X               X
       Partnership
       Richmond Private Industry
       Council
       District 1199C Training and
       Upgrading Fund
       Alexandria Redevelopment
       and Housing Authority
       Total Grantees Per Finding        3             7               2

       Percent of 12 Grantees           25%          58%              17%




                                                     22
                                                                                  Appendix 3
                                                                                  Page 1 of 5
                              Overview of Principal Criteria


The following is an overview of the principal criteria for the WtW program as summarized
from the WtW regulations.

      !        Purpose of the WtW Program:

          C    To facilitate the placement of hard-to-employ welfare recipients in lasting
               unsubsidized employment and self-sufficiency.

          C    Provide a variety of placement activities featuring the “work- first”
               philosophy.

          C    To provide a variety of post-employment and job retention services.

          C    Target hard-to-employ welfare recipients in high poverty areas.
               (20 CFR 645.110)

      !        Work-First:

          Placing individuals in employment activities before providing support services
          such as basic skills training, child care and transportation. Job readiness,
          employment activities and placement services are the only allowable
          preemployment activities.
          (20 CFR 645.110) and (20 CFR 645.220)

      !        Funds Spent:

          C    At least 70 percent must benefit the hard-to-employ individuals.

          C    No more than 30 percent must be used to assist individuals with long-term
               welfare dependence characteristics. (20 CFR 645.211)




                                              23
                                                                           Appendix 3
                                                                           Page 2 of 5
                         Overview of Principal Criteria


!         70 Percent Eligibility Provision:

    (a)   Must meet all three criteria:
                1.      Currently receiving TANF assistance;
                2.      Participant must meet two of the three barriers to employment:
                        A.     has not completed secondary education or obtained GED
                               and has low reading and math skills,
                        B.     requires substance abuse treatment for employment, or
                        C.     has a poor work history (worked no more than 3 of the
                               last 12 months);
                3.      Receiving TANF for at least 30 months or will become
                        ineligible for assistance within the next 12 months.

    (b)   A noncustodial parent of a minor, if the custodial parent or minor children
          meet the criteria in (a) 1 & 3 and the noncustodial parent meets two of the
          three barriers to employment. (Revised according to the Technical
          Amendment)

    (c)   An individual who meets two of the three barriers to employment and would
          be eligible to receive TANF, but has reached the lifetime limitation.
                 (20 CFR 645.212)

!         30 Percent Eligibility Provision:

    (a)   The individual is receiving TANF and has characteristics associated with long-
          term welfare dependence:
                 1.     dropped out of school,
                 2.     teenage pregnancy,
                 3.     poor work history, or
                 4.     other approved characteristics.

    (b)   A noncustodial parent of a minor child, if the noncustodial parent has long-
          term characteristics specified in (a) and the custodial parent is receiving
          TANF assistance.




                                         24
                                                                         Appendix 3
                                                                         Page 3 of 5
                        Overview of Principal Criteria

    (c)   An individual who has characteristics associated with long-term welfare
          dependence and would be eligible to receive TANF, but has reached the
          lifetime limitation. (20 CFR 645.213)

!         Mechanisms Must be in Place to Determine Eligibility:

    C     The grantee must make arrangements with the TANF agency to ensure that
          WtW eligibility determination is based on current information and whether an
          individual is receiving TANF assistance.

    C     The assessment may include a determination of the barriers to employment.

    C     Information collected by the TANF agency may be valid for up to six months
          prior to the WtW eligibility determination.

    C     Mechanisms must be in place to determine eligibility for individuals not
          receiving TANF and for those who have reached their lifetime limitation.

    C     Eligibility for WtW need not be redetermined after services are received.
          (20 CFR 645.214)

!         Allowable Activities:

    (a)   Job Readiness
    (b)   Employment Activities:
                 Community Service Programs
                 C     Work Experience
                 C     Job Creation through wage subsidies
                 C     On-the-Job Training
    (c)   Job Placement Services using vouchers or contracts
    (d)   Post-employment Services:
                 C     Basic educational skills training
                 C     Occupational skills training
                 C     ESL training
                 C     Mentoring




                                        25
                                                                            Appendix 3
                                                                            Page 4 of 5
                         Overview of Principal Criteria

    (e)   Job retention and support services:
                 C      Transportation assistance
                 C      Substance abuse treatment
                 C      Child care assistance
                 C      Emergency or short-term housing
                 C      Other supportive services
    (f)   Individual Development Accounts
    (g)   Routine activities such as intake, assessment, eligibility determination,
          Individual Service Strategy and case management. (20 CFR 645.220)

!         Job Placement Contracts or Vouchers:

    Job placement contracts or vouchers must include a provision that at least one-half
    of the payments occur after the individual is placed in an unsubsidized job for six
    months.
    (20 CFR 645.230)

!         Administrative Costs:

    Competitive grants administrative expenditures are limited to a specified
    percentage in the grant agreement not to exceed a maximum of 15 percent. (20
    CFR 645.235)

    Administrative costs are overall management costs not directly related to providing
    services to participants. These costs can be related to personnel and non-personnel
    activities and may include both direct and indirect costs. (20 CFR 645.235)
    Examples of administrative costs include the following activities:

                 C      Directors
                 C      Personnel
                 C      Fiscal
                 C      Purchasing
                 C      Secretary
                 C      Payroll
                 C      Budgeting
                 C      Monitoring
                 C      Management Information System (MIS)




                                         26
                                                                         Appendix 3
                                                                         Page 5 of 5
                           Overview of Principal Criteria


!        Indirect Costs:

    Indirect or overhead costs are normally charged to administration, except when
    charged to a cost pool and allocated to a cost objective/category directly
    benefitted.
    (20 CFR 645.235)

!        Information Technology Costs:

    The cost of information technology - computer hardware and software - needed for
    tracking and monitoring shall not be charged to administration. (20 CFR 645.235)

    Only the costs for information technology that is “year 2000 compliant” shall be
    allowable. (20 CFR 645.235)




                                        27
                                                                                  Appendix 4


                  Second Round Postaward Survey Fieldwork Information


                                                                          FIELDWORK
                                                      PERFORMANCE
                                                      PERIOD START   BEGINNING    ENDING
       GRANTEE                   LOCATION                 DATE         DATE        DATE
Chicago Housing
Authority               Chicago, Illinois                1/4/99       3/23/99     4/1/99
Columbus Urban League Columbus, Ohio                     1/4/99       3/22/99     4/2/99
Full Employment
Council                 Kansas City, Missouri            1/4/99       4/12/99     4/30/99
City of Gary,
Department of Health
and Human Services      Gary, Indiana                    1/4/99       4/19/99     4/30/99
Community and
Economic
Development
Association of Cook
County                  Chicago, Illinois                1/4/99       4/19/99     4/30/99
Wildcat Service
Corporation             New York, New York               1/4/99       5/12/99     5/26/99
Action for Boston
Community
Development             Boston, Massachusetts            1/4/99       5/10/99     5/21/99
Bennett College         Greensboro, North Carolina       1/15/99      5/17/99     5/28/99
San Diego Workforce
Partnership             San Diego, California            1/4/99       5/17/99     6/2/99
Richmond Private
Industry Council        Richmond, Virginia               1/4/99       4/19/99     4/23/99
District 1199C Training
and Upgrading Fund      Philadelphia, Pennsylvania       1/4/99       4/12/99     4/23/99
Alexandria
Redevelopment and
Housing Authority       Alexandria, Virginia             1/4/99       4/12/99     4/23/99




                                                 28
                                                                                            Appendix 5

                      Status of Second Round WtW Competitive Grantees




                                                        Planned                                 Actual
                                                      Placements                             Placements
                                         Planned           in         Costs       Actual          in
                                        Enrollment   Unsubsidized   Incurred    Enrollment Unsubsidized
         Grantee          Grant Award       s        Employment     to Date 6   s to Date 6 Employment 6
Chicago Housing            $5,000,000          900           750      $7,827         0           0
Authority
Columbus Urban League      $3,149,984          480           346      $3,248         0           0
Full Employment Council    $4,420,558          805           508     $37,297         0           0
City of Gary, DHHS         $5,000,000          450           400     $18,739         0           0
Community & Economic
Development Association    $4,999,302          750           600     $22,947       139          32
Wildcat Service            $2,007,017          400           300     $60,639        29           0
Corporation
Action for Boston
Community Development      $2,785,430          300           215     $27,707         1           0
Bennett College            $5,000,000          500           421 $222,086           46          46
San Diego Workforce        $5,000,000        1,100           500     $26,980         0           0
Richmond PIC               $4,993,775          700           535           $0        0           0
District 1199C Training
and Upgrading Funds        $4,449,928          600           450     $54,838        39           0
Alexandria
Redevelopment and          $1,090,000          250           150      $1,900         0           0
Housing Authority

Totals                    $47,895,994        7,235         5,175 $484,208          254          78




                                                                                            Appendix 6
                                                                                            Page 1 of 3




         6
         The cost incurred, actual enrollments, and placements in unsubsidized employment
 are as of the dates of our fieldwork found in Appendix 4.




                                                     29
Suggested Areas for Inclusion in Grantee Written Policies and Procedures


 C The work-first approach restricts the grantee from providing services (except job
   readiness) until the participant has engaged in employment-based activities. Also,
   the procedures should describe allowable activities for qualified participants.

 C Procedures for recording, tracking and reporting the 70 percent minimum/30
   percent maximum expenditures to the appropriate cost categories.

 C Eligibility requirements for the 70/30 percent programs at the grantee and
   subgrantee levels. Procedures for determining and reviewing eligibility
   documentation.

 C Proper assessment of skills, prior work experience, employability and other
   relevant information including record keeping requirements for each participant.

 C Fully define 15 percent administrative costs limitation and definitions for
   administrative and indirect costs.

 C Cash management procedures for authorized drawdowns, maintaining fund
   balances, and reconciliations for cash and petty cash accounts.

 C Program income procedures for recording and using the income to further delivery
   of the program and the return of income over $250 for interest earned on advances.

 C Documentation requirements for verifying placements and retention to ensure
   accurate reporting. Contracts and vouchers for job placement services must
   include a provision to require that at least one-half of the placement payment occur
   after an eligible individual has been in the workforce for six months. (Employer
   payroll records or wage reports are usually the best documentation to verify 6
   months on the job.)

 C Procedures for developing and maintaining Individual Development Accounts. The
   procedures should include requesting and receiving approval from the State and/or
   the DHHS.

 C Identification of allowable and unallowable costs and proper cost allocation from
   Attachment B from OMB Circular A-122 or applicable circulars describing
   allowable and unallowable costs.




                                                                          Appendix 6
                                                                          Page 2 of 3

Suggested Areas for Inclusion in Grantee Written Policies and Procedures

                                       30
C Procedures for reporting obligated and deobligated costs not recorded in the
  financial accounting system.

C Procurement and small purchases guidelines and procedures need to be
  comprehensive. Procedures should include or specifically reference many of the
  more stringent requirements mandated by the Federal Government or by the State
  and local governments. Specifically, there should be written procedures that
  address items such as:

 C     Prohibition of “cost plus a percentage of cost” contracting methods.

 C     A requirement that procurement and small purchases are made on the basis of
       full and open competition.

 C     Cost or price analysis be performed for each procurement action.

 C     Profits be negotiated as a separate element in all contracts that allow for
       profit.

 C     Identification of procurements that require prior approval by DOL.

 C     Provisions prohibiting actions to break purchase quantities down into smaller
       components to circumvent more stringent procurement requirements.

 C     Requirements that a RFP be announced in a publication that has general
       circulation in the competitive area.

C A provision that prohibits the construction or the purchase of facilities, buildings
  or capital improvements using WtW funds.

C Approval, acquisition, tracking, inventories and disposition requirements for
  equipment and supplies. Computer software/hardware must be year 2000
  compliant.

C Procedures to ensure that physical inventories are conducted and reconciled at
  least every 2 years.




                                       31
                                                                         Appendix 6
                                                                         Page 3 of 3

Suggested Areas for Inclusion in Grantee Written Policies and Procedures

 C Contractual procedures for awarding contracts to qualified subrecipients including
   debarment assurances and certifications provisions, Federal requirements that must
   be followed, Code of Federal Domestic Assistance numbers, statements of
   understanding and compliance, and record retention.

 C Procedures or a manual for MIS controls, storage, access, verification of reported
   data, and tracing reported data to source documents.

 C MIS contingency plan for disasters and security risks.

 C Monitoring procedures for the grantee and subgrantee levels to include reviewing:
   WtW requirements; scheduling monitoring, issuing reports, and resolving findings;
   TANF information to ensure it was taken within six months of eligibility
   determination; an assessment of skills, prior work experience and employability
   has been performed; work first has been implemented before services are provided;
   and only allowable activities have been provided.

 C Grantee and subrecipient audit and audit resolution responsibilities under A-133.




                                       32
                           Appendix 7




Complete Agency Response




           33
